BECKER GALLAGHE R
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 19-123
SHARONELL FULTON, ET AL.,

Petitioners,
v.
CITY OF PHILADELPHIA, PENNSYLVANIA, ET AL.,

Respondents.
As required by Supreme Court Rule 33.l(h), I
certify that the Brief of Children's Rights; Professor
Bruce Boyer; Center for Children's Advocacy; Center
on Children and Families; Children and Family
Justice Center; Children's Action Alliance; Children's
Advocacy Institute; Children's Defense Fund;
Children's Defense Fund-New York; Children's Law
Center of California; Children's Law Center of
Kentucky; Court Appointed Special Advocates of Los
Angeles; Professor Michael J. Dale; First Star, Inc.;
Harvard Law School Child Advocacy Program;
Juvenile Law Center; Lawyers For Children; Legal
Counsel for Youth and Children; Legal Services for
Children; National Association of Counsel for
Children; National Center for Youth Law; New Mexico
Advocacy Network; Partners for Our Children;
University of Miami Children and Youth Law Clinic;
Youth Law Center; Professor C. Colt Anderson; Pastor
Susannah Davis; Episcopal Divinity School at Union;
Rabbi Steve Gutow; Hon. Ruth W. Messinger; Rabbi
Philip Rice; SAJ; Union Theological Seminary asAmici
Curiae Supporting Respondents contains 7,985 words,
excluding the parts of the Brief that are exempted by
Supreme Court Rule 33.l(d).

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
, Washington, DC 20005

I declare under penalty of perJury that the
foregoing is true and correct.
Executed on August 20, 2020.

Becker Gallagher Legal u ·shing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

•

